VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                      Inspection of 

                                                                    VA Regional Office 

                                                                      Waco, Texas 





                                                                                   July 30, 2013
                                                                                   13-00368-244
            ACRONYMS AND ABBREVIATIONS 


C&C         Confirmed and Continued
D1BC        Day 1 Brokering Center
DRO         Decision Review Officer
OIG         Office of Inspector General
RVSR        Rating Veterans Service Representative
SAO         Systematic Analysis of Operations
TBI         Traumatic Brain Injury
TMS         Talent Management System
TPSS        Training and Performance Support System
VARO        Veterans Affairs Regional Office
VBA         Veterans Benefits Administration
VSC         Veterans Service Center
WMP         Workload Management Plan




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov 

                 (Hotline Information: www.va.gov/oig/hotline) 

                 Report Highlights: Inspection of the
                 VA Regional Office, Waco, Texas


Why We Did This Review                            homeless veterans; however, VBA needs a
                                                  measure to assess its outreach program.
The Veterans Benefits Administration (VBA)
has 56 VA Regional Offices (VAROs), and           What We Recommend
1 Veterans Service Center in Cheyenne,
Wyoming, that process disability claims and       We recommend the VARO Director develop
provide a range of services to veterans. We       and implement a plan to review all
evaluated the Waco VARO to see how well it        remaining temporary 100 percent disability
accomplishes this mission.                        evaluations identified during our inspection
                                                  and take appropriate action. The Director
What We Found                                     should provide refresher training on
                                                  processing traumatic brain injury claims and
Overall, VARO staff did not accurately            monitor the effectiveness of the training.
process 24 (40 percent) of 60 disability          Actions should be taken to ensure staff
claims we reviewed. We sampled claims we          comply with VBA’s policy requiring
consider at higher risk of processing errors,     second-level review of traumatic brain
thus these results do not represent the overall   injury claims decisions by more experienced
accuracy of disability claims processing at       decision makers.      The Director should
this VARO.         Claims processing lacks        ensure staff includes recommendations for
consistent compliance with VBA procedures         addressing problems identified through
and is resulting in paying inaccurate and         Systematic Analyses of Operations.
unnecessary financial benefits.
                                                  Agency Comments
Specifically, 15 of 30 temporary 100 percent
disability evaluations we reviewed were           The VARO Director concurred with our
inaccurate, generally because VARO staff          recommendations. Management’s planned
did not establish controls to request future      actions are responsive and we will follow up
medical reexaminations. Errors in processing      as required.
9 of 30 traumatic brain injury claims
occurred primarily due to ineffective training
and inexperienced staff rating these complex
claims.

Systematic Analyses of Operations were
incomplete, generally because the work
performed did not include recommendations.                 LINDA A. HALLIDAY
The VARO’s performance was generally                    Assistant Inspector General
effective in addressing Gulf War veterans’              for Audits and Evaluations
entitlement to mental health treatment. Waco
VARO staff provided adequate outreach to


                                                                                             i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    I. 	 Disability Claims Processing ...............................................................................................2
 
           Finding 1              The Waco VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 
                                  Recommendations........................................................................................7
 
    II. Management Controls ..........................................................................................................9 

           Finding 2              VARO Oversight is Needed To Ensure Complete SAOs............................9 

                                  Recommendation .......................................................................................10 

    III. Eligibility Determinations..................................................................................................11 

    IV. Public Contact ....................................................................................................................12 

Appendix A                        VARO Profile and Scope of Inspection .....................................................13 

Appendix B                        Inspection Summary ..................................................................................15 

Appendix C                        VARO Director’s Comments.....................................................................16
 
Appendix D                        Office of Inspector General Contact and Staff Acknowledgments ...........19 

Appendix E                        Report Distribution ....................................................................................20 





                                                                                                                                                 ii
                                                         Inspection of VA Regional Office Waco, TX



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In January 2013, we inspected the Waco VARO. The inspection focused on
Inspection          the following four protocol areas: disability claims processing, management
                    controls, eligibility determinations, and public contact. Within these areas,
                    we examined two high risk claims processing areas: temporary 100 percent
                    disability evaluations and traumatic brain injury (TBI) claims. We also
                    examined three operational activities: Systematic Analyses of Operations
                    (SAOs), Gulf War veterans’ entitlement to mental health treatment, and the
                    homeless veterans outreach program.

                    We reviewed 30 (4 percent) of 825 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy.         We examined 30 (16 percent) of
                    182 disability claims related to TBI that VARO staff completed from July
                    through September 2012.

Other               	 Appendix A provides details on the VARO and the scope of our
Information            inspection.
                    	 Appendix B provides criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the VARO Director’s comments on a draft of this
                       report.


VA Office of Inspector General                                                                  1
                                                              Inspection of VA Regional Office Waco, TX



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing
Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy
                    these claims processing issues and their impact on veterans’ benefits.

Finding 1 	         The Waco VARO Could Improve Disability Claims Processing
                    Accuracy

                    The Waco VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 24 of the total 60 disability claims we sampled,
                    resulting in 88 improper monthly payments to 4 veterans totaling
                    $161,689 from January 2009 until December 2012.

                    We sampled claims related to specific conditions that we considered at
                    higher risk of processing errors. As a result, the errors identified do not
                    represent the universe of disability claims or the overall accuracy rate at this
                    VARO. As reported by VBA’s Systematic Technical Accuracy Review
                    program as of November 2012, the overall accuracy of the VARO’s
                    compensation rating-related decisions was 84 percent—6 percentage points
                    below VBA’s target of 90 percent. This program information was not
                    reviewed during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Waco VARO.

Table 1                          Waco VARO Disability Claims Processing Accuracy
                                                                     Claims Inaccurately Processed

                           Type of Claim        Reviewed      Affecting      Potential To
                                                              Veterans’     Affect Veterans’      Total
                                                               Benefits         Benefits
                      Temporary 100 Percent
                      Disability Evaluations
                                                  30             4                11                 15
                      Traumatic Brain Injury
                      Claims
                                                  30             0                  9                09
                      Total                       60             4                20                 24
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                      least 18 months or longer and TBI disability claims completed in the fourth quarter
                      FY 2012




VA Office of Inspector General                                                                            2
                                                          Inspection of VA Regional Office Waco, TX


Temporary           VARO staff incorrectly processed 15 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued (C&C) evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. A suspense diary is a processing command that
                    establishes a date when VSC staff must schedule a medical reexamination.
                    As a suspense diary matures, the electronic system generates a reminder
                    notification to alert VSC staff to schedule the medical reexamination.

                    Four of the 15 processing errors involved C&C rating decisions where VSC
                    staff did not input suspense diaries as required. The reasons for the
                    remaining errors varied; we did not identify a common trend or pattern
                    related to processing temporary 100 percent disability evaluations.

                    In response to a recommendation in our national report, Audit of 100 Percent
                    Disability Evaluations (Report No. 09-03359-71, January 24, 2011), VBA
                    updated the electronic system to automatically establish diaries for C&C
                    rating decisions when a future medical reexamination is required. VBA
                    confirmed the update was successful in June 2011. After the update, we
                    have not identified any errors involving C&C rating decisions. This update
                    appears to be working; therefore, we made no recommendation for
                    improvement in this area.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed that 4 of the 15 processing errors we
                    identified affected veterans’ benefits. The errors resulted in 88 improper
                    monthly payments totaling $161,689 from January 2009 until December
                    2012. Details on the most significant overpayment and underpayment
                    follow.

                    	 A Rating Veterans Service Representative (RVSR) incorrectly continued
                       a temporary 100 percent evaluation of a veteran’s non-Hodgkin’s
                       lymphoma. VA treatment records showed the veteran had completed
                       medical treatment and the condition was in remission, warranting a
                       reduction in benefits as of September 1, 2009. VA continued processing
                       monthly benefits and ultimately overpaid the veteran $81,969 over a
                       period of 3 years and 3 months.
                    	 An RVSR did not grant a veteran entitlement to a special monthly benefit
                       based on the loss of use of a procreative organ, as required by VBA

VA Office of Inspector General                                                                   3
                                                          Inspection of VA Regional Office Waco, TX


                        policy. As a result, VA underpaid the veteran $198 over a period of
                        2 months.

                    The remaining 11 of the total 15 errors had the potential to affect veterans’
                    benefits. VARO staff did not schedule medical reexaminations as required
                    for some of the errors we identified. In nine cases, we found scheduling
                    delays from approximately 7 months to 7 years and 3 months.

                    Summaries of the total 15 errors we identified follow.

                    	 Six errors occurred when staff did not establish suspense diaries, thereby
                       removing the possibility that staff would receive reminder notifications to
                       schedule medical reexaminations. Four of these errors involved C&C
                       rating decisions; however, they occurred prior to the June 2011 update to
                       the electronic record.
                    	 Two errors occurred when RVSRs improperly continued veterans’
                       temporary 100 percent evaluations although medical evidence showed
                       improvement and required reductions of benefits payments.
                    	 Two errors occurred when RVSRs did not grant entitlement to
                       Dependents’ Educational Assistance when evidence in the claims folders
                       showed the veterans’ disabilities were permanently and totally disabling,
                       thereby warranting the additional benefits.
                    	 One error occurred when an RVSR granted a temporary 100 percent
                       evaluation for lung cancer, but did not schedule an immediate
                       examination.
                    	 One error occurred when an RVSR did not establish entitlement to
                       special monthly compensation for a medical condition secondary to
                       service-connected prostate cancer.
                    	 One error occurred when an RVSR established an increased evaluation
                       for a veteran’s prostate cancer with an incorrect effective date.
                    	 One error occurred when staff established controls to reduce a veteran’s
                       benefit payments, but did not take final action to reduce the benefits. A
                       delay of approximately 173 days elapsed from the time staff should have
                       taken final action to reduce benefits until November 2012.
                    	 One error occurred when staff proposed to reduce a veteran’s benefit
                       payments, but did not establish control to manage the proposed
                       reduction. A delay of approximately 46 days elapsed from the time staff
                       should have taken final action to reduce benefits until November 2012.
Follow-Up to        In our previous report, Inspection of the VA Regional Office, Waco, TX
Prior VA OIG        (Report No. 09-03848-130, dated April 16, 2010), we stated errors in
Inspection          processing temporary 100 percent evaluations generally occurred because
                    VARO staff did not input suspense diaries in the electronic system to provide
                    reminder notifications to schedule medical reexaminations. In addition,

VA Office of Inspector General                                                                   4
                                                          Inspection of VA Regional Office Waco, TX


                    errors occurred when staff did not schedule needed examinations after
                    receiving reminder notifications to do so.

                    The Director of the Waco VARO concurred with our recommendation to
                    implement a plan that ensures staff schedule future medical reexaminations
                    for temporary 100 percent disability evaluations. Effective March 2010, the
                    VARO implemented a plan requiring staff to print copies of computer
                    screens identifying the future examination dates and file these documents in
                    the claims folders as proof that future dates were populated in the electronic
                    record. Also, Senior Veterans Service Representatives were required to
                    review all C&C ratings to ensure staff input suspense diaries in the electronic
                    system as required.         The OIG closed this recommendation in
                    September 2010. While managers stated they put this policy in effect, they
                    did not implement oversight procedures to ensure staff followed it. Of the
                    four processing errors involving C&C rating decisions, we found only two
                    errors occurred after the March 2010 plan was implemented.

                    The Director of the Waco VARO also concurred with our recommendation
                    to conduct a review of all temporary 100 percent disability evaluations under
                    his jurisdiction to determine whether reevaluations were required and take
                    appropriate action.        The OIG closed this recommendation in
                    September 2010, after VARO managers indicated they had completed
                    reviews of the temporary 100 percent evaluations that we did not include in
                    our inspection.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
Prior Audit         the then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each evaluation had a future
                    examination date entered in the electronic record. Our report stated, “If
                    VBA does not take timely corrective action, they will overpay veterans a
                    projected $1.1 billion over the next 5 years.” The then-Acting Under
                    Secretary for Benefits stated in response to our audit report that the target
                    completion date for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    then to June 30, 2012, and then again to December 31, 2012. Based on the
                    numerous delays and our continued findings, we are concerned about the
                    lack of urgency in completing this review, which is critical to minimize the
                    financial risk of making inaccurate benefits payments.

                    During our January 2013 inspection, we followed up on VBA’s national
                    review of its temporary 100 percent disability evaluation processing. We
                    examined 40 (7 percent) of 578 temporary 100 percent disability evaluations
                    on VBA’s SharePoint lists of cases for review. We determined VARO staff

VA Office of Inspector General                                                                   5
                                                          Inspection of VA Regional Office Waco, TX


                    accurately took actions, such as inputting suspense diaries or scheduling
                    reexaminations, on all 40 cases we reviewed. However, in comparing
                    VBA’s national review list with our data on temporary 100 percent disability
                    evaluations, we found five cases that VBA had not identified. We will
                    continue monitoring this situation as VBA works to complete its national
                    review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, dated May 18, 2011), VBA agreed to develop and implement
                    a strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to all VARO Directors to implement a policy
                    requiring a second signature on each TBI case an RVSR evaluates until the
                    RVSR demonstrates 90 percent accuracy in TBI claims processing. The
                    policy indicates second-signature reviewers come from the same pool of staff
                    as those used to conduct local station quality reviews.

                    VARO staff incorrectly processed 9 of 30 TBI claims—all 9 claims had the
                    potential to affect veterans’ benefits. Following are descriptions of these
                    errors.

                    	 In four cases, RVSRs improperly evaluated residuals of TBI. These
                       errors did not affect the veterans’ ongoing monthly benefits, but have the
                       potential to affect future benefits in the event of additional compensable
                       disabilities.
                    	 In three cases, RVSRs used inadequate VA medical examination reports
                       to evaluate the veterans’ disabilities. The RVSRs did not return these
                       insufficient examination reports to the issuing clinics or health care
                       facilities as required. Neither VARO staff nor we can ascertain all of the
                       residual disabilities of a TBI without adequate or complete medical
                       evidence.
                    	 In two cases, RVSRs improperly evaluated TBIs separately from
                       coexisting mental conditions. For these cases, the RVSRs were required
                       to assign a single evaluation for each veteran’s overall impaired
                       functioning due to both medical conditions.

                    Generally, errors associated with TBI claims processing resulted from
                    inexperienced staff who had difficulty rating complex TBI claims. VSC
                    management and staff indicated there were several RVSRs who lacked
                    experience in processing these claims. Additionally, staff stated it was

VA Office of Inspector General                                                                   6
                                                          Inspection of VA Regional Office Waco, TX


                    difficult to become proficient in deciding complicated TBI cases because
                    these types of claims were not common. Further, five of the nine TBI
                    processing errors did not receive a second signature review by more
                    experienced decision makers as required by VBA policy. VSC managers
                    and staff said RVSRs may have forgotten the requirement for an additional
                    level of review, particularly if they had not recently rated TBI claims. As a
                    result, veterans may not always receive correct benefit decisions.

Follow-Up to        Our previous report, Inspection of the VA Regional Office, Waco, TX
Prior VA OIG        (Report No. 09-03848-130, dated April 16, 2010), stated eight of the total
Inspection
                    claims reviewed had processing errors. These errors generally occurred
                    because RVSRs needed further training on processing complex TBI claims.
                    The Director of the Waco VARO concurred with our recommendation to
                    develop and implement refresher training to ensure staff maintained their
                    rating skills.

                    On September 14, 2010, the OIG closed this recommendation after learning
                    that the VARO provided the TBI refresher training to RVSRs and Decision
                    Review Officers in February 2010. The VARO also held TBI training in
                    April 2011 and May 2012. However, we continued to identify TBI
                    processing errors as a result of our January 2013 inspection. Further, VSC
                    staff were still unaware of some of the more complex policies for rating TBI
                    claims. Some staff felt the TBI training they received did not prepare them
                    to process these types of cases, indicating that the training was ineffective.

                    Recommendations

                    1.	 We recommend the Waco VA Regional Office Director conduct a review
                        of the 795 temporary 100 percent disability evaluations remaining from
                        the data we used to perform the inspection and take appropriate action.
                    2.	 We recommend the Waco VA Regional Office Director provide refresher
                        training on processing traumatic brain injury claims and develop and
                        implement a plan to monitor the effectiveness of the training.
                    3.	 We recommend the Waco VA Regional Office Director develop and
                        implement a plan to ensure staff comply with Veterans Benefits
                        Administration policy requiring second signature review of each
                        traumatic brain injury claim processed.

Management          The Director concurred with our recommendations and staff completed a
Comments            review of all 795 temporary 100 percent disability evaluations remaining
                    from data we used to perform our inspection. Corrective actions included
                    requesting future reexaminations, continuing existing 100 percent disability
                    evaluations, and granting ancillary benefits as appropriate. VARO staff
                    completed TBI training in April and May 2013. Additionally, supervisors
                    and staff received follow-up guidance regarding VBA’s policy on second-


VA Office of Inspector General                                                                   7
                                                        Inspection of VA Regional Office Waco, TX


                    signature reviews of TBI claims. Management will utilize a tracking log to
                    monitor the quality of completed TBI claims.

OIG Response        The Director’s comments and actions are responsive to the recommendations.




VA Office of Inspector General                                                                 8
                                                          Inspection of VA Regional Office Waco, TX


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support the analyses and recommendations identified within each
                    SAO. An SAO is a formal analysis of an organizational element or
                    operational function. SAOs provide an organized means of reviewing VSC
                    operations to identify existing or potential problems and propose corrective
                    actions.    VARO management must publish annual SAO schedules
                    designating the staff required to complete the SAOs by specific dates. The
                    VSC Manager is responsible for ongoing analysis of VSC operations,
                    including completing 11 SAOs annually.

Finding 2           VARO Oversight is Needed To Ensure Complete SAOs

                    Eight of the 11 SAOs were incomplete (missing required elements). Five of
                    the eight did not contain recommendations for addressing identified
                    problems. VBA policy states when problems are identified, management
                    should include recommendations in the SAO to remedy the problem or to
                    implement process improvements. In addition, management should be
                    specific in terms of what is expected and when staff will accomplish the
                    recommendations.      However, VARO management did not include
                    recommendations in its SAOs. VARO management could have more
                    effectively measured VSC performance had it included recommendations for
                    corrective actions.

                    Waco VARO managers believed that because they took corrective action to
                    address the problems identified, no recommendations were required. VSC
                    managers stated they received inconsistent guidance from previous VARO
                    management regarding whether or not recommendations were required in the
                    SAOs.

                    An example of an SAO that did not include recommendations was Claims
                    Processing Timeliness. This SAO noted claims processing timeliness was
                    negatively affected by a time-sensitive national project and a large number of
                    trainees. Management offered no recommendations or corrective action in
                    the SAO. Recommendations to mitigate the impact of competing work
                    priorities and trainees could have helped the VARO measure or ensure
                    improvement of its claims processing timeliness.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Waco, TX
Prior VA OIG        (Report No. 09-03848-130, dated April 16, 2010), we stated incomplete
Inspection
                    SAOs resulted from staff following outdated guidance. Also, a lengthy
                    review process caused SAOs to be untimely. The OIG closed this
                    recommendation on September 14, 2010, after the VARO put controls in
                    place to shorten the review process of SAOs and designated a VSC

VA Office of Inspector General                                                                   9
                                                         Inspection of VA Regional Office Waco, TX


                    Management Analyst to review SAOs for accuracy. Although our current
                    inspection showed SAOs to be timely, we determined they continued to be
                    incomplete because VARO management did not require inclusion of
                    recommendations for identified problems.

                    Recommendation

                    4.	 We recommend the Waco VA Regional Office Director develop and
                        implement a plan to ensure staff follow Veterans Benefits Administration
                        policy on including recommendations for identified problems in their
                        Systematic Analyses of Operations.

Management          The Director concurred with our recommendation and developed a cover
Comments            sheet for each SAO that includes an area for additional recommendations.

OIG Response        The Director’s comments and actions are responsive to the recommendation.




VA Office of Inspector General                                                                 10
                                                         Inspection of VA Regional Office Waco, TX


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA policy, whenever an RVSR denied a Gulf War veteran
Disorders           service connection for any mental disorder, the RVSR had to also consider
                    whether the veteran was entitled to receive mental health treatment. This
                    policy required RVSRs to deny entitlement when there was no medical
                    evidence of a mental disorder that developed within 2 years of separation
                    from military service even when the benefit had not been claimed by the
                    veteran.

                    In December 2012, VBA modified its policy to state that RVSRs no longer
                    have to address Gulf War veterans’ entitlement to mental health care in all
                    cases. RVSRs only have to consider this entitlement when a veteran’s
                    mental health benefit can be granted based on diagnosis of a mental disorder
                    that developed within 2 years of separation from military service.

                    We determined staff did not properly address whether 2 of 30 Gulf War
                    veterans were entitled to receive treatment for mental disorders. We also
                    determined the VARO was generally following VBA’s amended policy, thus
                    we made no recommendation for improvement in this area.




VA Office of Inspector General                                                                 11
                                                         Inspection of VA Regional Office Waco, TX


                     IV. Public Contact

Outreach to          In November 2009, VA developed a 5-year plan to end homelessness among
Homeless             veterans by assisting every eligible homeless veteran willing to accept
Veterans             service. VBA generally defines “homeless” as lacking a fixed, regular, and
                     adequate nighttime residence.

                     Congress mandated that at least one full-time employee oversee and
                     coordinate homeless veterans programs at each of the 20 VAROs that VA
                     determined to have the largest veteran populations. VBA guidance, last
                     updated in September 2002, directed that coordinators at the remaining
                     VAROs be familiar with requirements for improving the effectiveness of
                     VARO outreach to homeless veterans.           These requirements include
                     developing and updating a directory of local homeless shelters and service
                     providers. Additionally, the coordinators should attend regular meetings
                     with local homeless service providers, local government, and advocacy
                     groups to provide information on VA benefits and services.

                     The Waco VARO has a full-time Homeless Veterans Outreach Coordinator.
                     Interviews with a local homeless shelter representative, North Texas VA
                     Medical Center staff, and a local Veterans’ Service Officer confirmed the
                     Coordinator was proactive in providing outreach services to homeless
                     veterans. We also received a list of homeless outreach activities the
                     Coordinator had attended. Because we determined the Homeless Veterans
                     Outreach Coordinator provided outreach services to homeless veterans as
                     required, we made no recommendation for improvement in this area.
                     However, VBA needs a measurement to assess the effectiveness of its
                     homeless veterans outreach efforts.




 VA Office of Inspector General                                                                12
                                                         Inspection of VA Regional Office Waco, TX


Appendix A          VARO Profile and Scope of Inspection

Organization        The Waco VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; benefits counseling; and outreach to homeless,
                    elderly, minority, and women veterans.

Resources           As of October 2012, the Waco VARO reported a staffing level of
                    803 full-time employees. As of January 2012, of this total, the VSC had
                    714 employees assigned.

Workload            As of November 2012, the Waco VARO reported 48,753 pending
                    compensation claims.   The average time to complete claims was
                    451.1 days—201.1 days more than the national target of 250.

Scope               VBA has 56 VAROs, and 1 VSC in Cheyenne, Wyoming, that process
                    disability claims and provide a range of services to veterans. We evaluated
                    the Waco VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud claims processing.

                    Our review included 30 (4 percent) of 825 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    October 26, 2012. We provided VARO management with 795 claims
                    remaining from our universe of 825 for its review. As follow-up to our
                    January 2011 audit, we sampled 40 temporary 100 percent disability
                    evaluations from the SharePoint list VBA provided to the VARO as part of
                    its national review. We also reviewed 30 (16 percent) of 182 TBI-related
                    disability claims that the VARO completed from July through September
                    2012.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.



VA Office of Inspector General                                                                 13
                                                          Inspection of VA Regional Office Waco, TX


                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012. We
                    examined 30 completed claims processed for Gulf War veterans from July
                    through September 2012 to determine whether VSC staff had addressed
                    entitlement to mental health treatment in the rating decision documents as
                    required. Further, we assessed the effectiveness of the VARO’s homeless
                    veterans outreach program.

Data                We used computer-processed data from the Veterans Service Network’s
Reliability         Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the claims
                    folders we reviewed for temporary 100 percent evaluations, TBI, and Gulf
                    War veterans’ entitlement to mental health treatment claims.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed as part of our inspection
                    of the Waco VARO did not disclose any problems with data reliability.

                    While this report references VBA’s Systematic Technical Accuracy Review
                    data, the overall accuracy of the VARO’s compensation rating-related
                    decisions was 84 percent—6 percentage points below VBA’s FY 2013 target
                    of 90 percent. This data was not reviewed as part of this inspection.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                  14
                                                                Inspection of VA Regional Office Waco, TX


Appendix B           Inspection Summary

                     Table 2 reflects the operational activities inspected, applicable criteria, and
                     whether or not we had reasonable assurance of VARO compliance.

                            Table 2. Waco VARO Inspection Summary
      Five                                                                                     Reasonable
   Operational                                     Criteria                                    Assurance of
    Activities                                                                                 Compliance
    Inspected                                                                                  Yes     No
                                        Disability Claims Processing
 1. Temporary      Determine whether VARO staff properly reviewed temporary
    100 Percent    100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR 3.105(e))
    Disability                                                                                          X
                   (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii, Chapter 2, Section J) (M21­
    Evaluations    1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

 2. Traumatic      Determine whether VARO staff properly processed claims for disabilities
    Brain Injury   related to in-service TBI. (FL 08-34 and 08-36) (Training Letter 09-01)              X
    Claims
                                           Management Controls
 3. Systematic     Determine whether VARO staff properly performed formal analyses of
    Analysis of    their operations through completion of SAOs. (M21-4, Chapter 5)                      X
    Operations

                                         Eligibility Determinations
 4. Gulf War       Determine whether VARO staff properly processed Gulf War veterans’
    Veterans’      claims, considering entitlement to medical treatment for mental illness.
    Entitlement    (38 United States Code 1702) ( M21-1MR Part IX, Subpart ii,                  X
    to Mental      Chapter 2)(M21-1MR Part III, Subpart v, Chapter 7) (FL 08-15) (38 CFR
    Health         3.384) (38 CFR 3.2)
                                               Public Contact
 5. Homeless       Determine whether VARO staff provided effective outreach services.
    Veterans       (Public Law 107-05) (VBA Letter 20-02-34) (VBA Circular 27-91-4)
                                                                                                X
    Outreach       (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II, Chapter 2)
    Program
  Source: VA OIG
  CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                          15
                                                                Inspection of VA Regional Office Waco, TX


Appendix C             VARO Director’s Comments


                  Department of
                  Veterans Affairs
                                                                Memorandum
          Date:      June 19, 2013

          From:      Director, VA Regional Office Waco, Texas

          Subj:      Inspection of the VA Regional Office, Waco, Texas

            To:      Assistant Inspector General for Audits and Evaluations (52)


                  1. 	 The Waco VARO’s comments are attached on the OIG Draft Report:
                       Inspection of the VA Regional Office, Waco, Texas.

                  2. 	Please refer questions to Pandi Van Houten, Veterans Service Center
                      Manager, at (254) 299-9110.


                      (Original signed)

                      JOHN S. LIMPOSE
                      Director
                      Waco VA Regional Office (349)


                      Attachment




VA Office of Inspector General                                                                        16
                                                        Inspection of VA Regional Office Waco, TX


                     RECOMMENDATIONS AND RESPONSES:

1.	 We recommend the Waco VA Regional Office Director conduct a review of the 795
    temporary 100 percent disability evaluations remaining from the data we used to
    perform the inspection and take appropriate action.

Response: Concur. The Waco VARO has completed the review of all 795 temporary 100
percent disability evaluations and appropriate action has been taken. The review found that
appropriate actions included preparing a record purpose rating to update corporate; granting
entitlement to Chapter 35; or requesting a review examination, which resulted in a proposed
reduction, a confirmed and continued (C&C) rating decision with a Chapter 35 grant, or a C&C
rating decision with a future examination. Mandatory training from Central Office was provided
to all Rating Veterans Service Representatives (RVSRs) and Decision Review Officers (DROs)
through the Talent Management System (TMS) to address procedures on 100 percent disability
evaluations. These cases are currently assigned to the Express lane.

2.	 We recommend the Waco VA Regional Office Director provide refresher training on
    processing traumatic brain injury claims and develop and implement a plan to
    monitor the effectiveness of the training.

Response: Concur. The Waco VARO completed the traumatic brain injury (TBI) Training and
Performance Support System (TPSS) module (22 hours) in April and May 2013. All RVSRs
and DROs assigned to the Special Operations, Appeals and Quality Review Teams completed
this training. Additionally, a select number of RVSRs and DROs were identified in the Day 1
Brokering Center (D1BC) to process TBI cases and those individuals also completed the
training. The Rating Quality Review Specialists received this training also so that they could
properly perform quality reviews on TBI cases.

3.	 We recommend the Waco VA Regional Office Director develop and implement a plan
    to ensure staff comply with the Veterans Benefits Administration policy requiring
    second-signature review of each traumatic brain injury claim processed.

Response: Concur. The Veterans Service Center (VSC) management team provided guidance to
the division in June 2011. Follow-up guidance was sent to the employees and supervisors in
January 2013, reminding employees of the processing requirements. Per notice of the Office of
Inspector General (OIG) recommendation received on May 31, 2011, the Waco VARO followed
the guidance for single signature authority. A tracking log is maintained solely to monitor the
rolling 10 cases and 90 percent accuracy for RVSRs. Once the decision maker has attained 90
percent accuracy, they are released to single signature for TBI claims. Based on the current
organizational model, TBI claims are assigned to the Special Operations lane.

Additionally, all recommendations noted above are topics of discussion and review on VSC
quarterly briefings to the Director.

4.	 We recommend that the Waco VA Regional Office Director develop and implement a
    plan to ensure staff follow Veterans Benefits Administration policy in including
    recommendations for identified problems in their Systematic Analyses of Operations.

VA Office of Inspector General                                                                17
                                                        Inspection of VA Regional Office Waco, TX




Response: Concur. The Waco VARO performs Systematic Analyses of Operations (SAOs) on
all areas in accordance with M21-4, Chapter 5.06 on an annual basis, with the exception of the
area of Fiduciary, which is no longer under Waco VARO jurisdiction. SAOs on Claims Process
Timeliness; Quality of Compensation, Pension and Ancillary Actions (Rating); Quality of
Compensation, Pension, and Ancillary Actions (Authorization); and Quality of File Activities
are prepared semi-annually. Problems are often identified and dispatched as they arise by
attentive management of the operations. Subsequently, the problems identified in SAOs were
shown to be addressed as corrective actions taken rather than recommendations for future action.
When problems or significant opportunities for improvement are identified by an SAO, the
report includes recommended actions to remedy the problem or implement processing
improvements. A new cover sheet implemented by the Director is now in place for the
concurrence process to include an area for additional recommendations.




VA Office of Inspector General                                                                18
                                                Inspection of VA Regional Office Waco, TX


Appendix D          Office of Inspector      General       Contact       and      Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Ed Akitomo
                                         Brett Byrd
                                         Ambreen Husain
                                         Jeff Myers
                                         David Piña
                                         Nelvy Viguera Butler
                                         Diane Wilson




VA Office of Inspector General                                                        19
                                                      Inspection of VA Regional Office Waco, Texas


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office Waco Director

                    Non-VA Distribution
                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: John Cornyn, Ted Cruz
                    U.S. House of Representatives: 	Joe Barton, Kevin Brady, Michael Burgess,
                      John Carter, Joaquin Castro, K. Michael Conaway, Henry Cuellar, John
                      Culberson, Lloyd Doggett, Blake Farenthold, Bill Flores, Pete Gallego,
                      Louie Gohmert, Kay Granger, Al Green, Gene Green, Ralph M. Hall, Jeb
                      Hensarling, Rubén Hinojosa, Sheila Jackson Lee, Eddie Bernice Johnson,
                      Sam Johnson, Kenny Marchant, Michael T. McCaul, Randy Neugebauer,
                      Pete Olson, Beto O’Rourke, Ted Poe, Pete Sessions, Lamar Smith, Steve
                      Stockman, Mac Thornberry, Marc Veasey, Filemon Vela, Randy Weber,
                      Roger Williams




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 20
